U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Thompson v. United States, No. 20-8286
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2021.
The government’s response is now due, after one extension, on September 1, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 1, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8286
THOMPSON, KEMON DOMINIQUE
USA

SARA WILSON KANE
FEDERAL PUBLIC DEFENDER OF THE
SOUTHERN DISTRICT OF FLORIDA
150 WEST FLAGLER STREET
STE. 1700
MIAMI, FL 33130

